No. 20-378

 

 

In THE
Supreme Court of the United States

NORTH CYPRESS MEDICAL CENTER OPERATING COM-
PANY, LTD., ET AL., PETITIONERS
ve

CIGNA HEALTHCARE, ET AL.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY BRIEF FOR THE PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on December 18, 2020.

 

Colin Casey Hogfn
Wilson-Epes Printing Co., Inc.
